<html>
<title> - HELPING STATE AND LOCAL LAW ENFORCEMENT DURING AN ECONOMIC DOWNTURN</title>
<body><pre>[Senate Hearing 111-192]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-192
 
  HELPING STATE AND LOCAL LAW ENFORCEMENT DURING AN ECONOMIC DOWNTURN

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 8, 2009

                               __________

                           Serial No. J-111-1

                               __________

         Printed for the use of the Committee on the Judiciary



                  U.S. GOVERNMENT PRINTING OFFICE
53-929                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
BENJAMIN L. CARDIN, Maryland         LINDSEY O. GRAHAM, South Carolina
SHELDON WHITEHOUSE, Rhode Island     JOHN CORNYN, Texas
RON WYDEN, Oregon                    TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
            Bruce A. Cohen, Chief Counsel and Staff Director
              Nicholas A. Rossi, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    36
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California, prepared statement.................................    37
Leahy, Hon. Patrick J., a U.S. Senator from the state of Vermont.     1
    prepared statement...........................................    63

                               WITNESSES

Leary, Mary Lou, Executive Director, National Center for Victims 
  of Crime, Washington, D.C......................................    11
Muhlhausen, David B., Ph.D., Senior Policy Analyst, Heritage 
  Foundation, Washington, D.C....................................    13
Ramsey, Charles H., Police Commissioner, Philadelphia Police 
  Department, Philadelphia, Pennsylvania.........................     6
Schirling, Michael E., Chief of Police, Burlington Police 
  Department, Burlington, Vermont................................     3
Schmidt, John R., Esq., Partner, Mayer Brown, former Associate 
  Attorney General, Department of Justice, Chicago, Illinois.....     8

                         QUESTIONS AND ANSWERS

Responses of David B. Muhlhausen to questions submitted by 
  Senator Hatch..................................................    22
Responses of Charles H. Ramsey to questions submitted by Senator 
  Feingold.......................................................    27
Responses of Michael E. Schirling to questions submitted by 
  Senator Feingold...............................................    28
Responses of John R. Schmidt to questions submitted by Senator 
  Feingold.......................................................    31

                       SUBMISSIONS FOR THE RECORD

Canterbury, Chuck, National President, Grand Lodge, Fraternal 
  Order of Police, Washington, D.C., statement...................    33
Fox, James P., District Attorney, San Mateo County, California, 
  and Chairman of the Board, National District Attorneys 
  Association, statement.........................................    46
Jordan, Anne H., Commissioner of Public Safety, Maine Department 
  of Public Safety, Augusta, Maine, letter.......................    62
Leary, Mary Lou, Executive Director, National Center for Victims 
  of Crime, Washington, D.C., statement..........................    65
Muhlhausen, David B., Ph.D., Senior Policy Analyst, Heritage 
  Foundation, Washington, D.C., statement........................    71
National Sheriffs' Association, Sheriff David A. Goad, President, 
  and Aaron D. Kennard, Executive Director, Alexandria, Virginia, 
  letter.........................................................    85
National Troopers Coalition, Dennis Hallion, Chairman, 
  Washington, D.C., letter.......................................    87
Nee, Thomas J., President, National Association of Police 
  Organizations, Alexandria, Virginia, statement.................    88
Ramsey, Charles H., Police Commissioner, Philadelphia Police 
  Department, Philadelphia, Pennsylvania, statement..............    91
Schirling, Michael E., Chief of Police, Burlington Police 
  Department, Burlington, Vermont, statement.....................    94
Schmidt, John R., Esq., Partner, Mayer Brown, former Associate 
  Attorney General, Department of Justice, Chicago, Illinois, 
  statement......................................................   101


  HELPING STATE AND LOCAL LAW ENFORCEMENT DURING AN ECONOMIC DOWNTURN

                              ----------                              


                       THURSDAY, JANUARY 8, 2009

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., Room 
226, Dirksen Senate Office Building, Hon. Patrick J. Leahy, 
Chairman of the Committee, presiding.
    Present: Senator Whitehouse.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
   THE STATE OF VERMONT, CHAIRMAN, COMMITTEE ON THE JUDICIARY

    Chairman Leahy. Good morning. Thank you for being here. I 
see many people that I know and I've worked with over the 
years. Of course, I'd note that Michael Schirling, the Chief of 
Police of Burlington, Vermont, is here. Burlington is where I 
lived for many years. I was a Prosecutor there, married there 
46 years ago, and raised children there.
    And Commissioner Ramsey, of course, is an old friend and no 
stranger to either myself or this Committee. I'm told, 
Commissioner, that Senator Specter has to be in Pennsylvania 
with President Bush today, and he regrets being unable to 
attend the hearing. Usually Senator Specter and I conduct these 
hearings together, and have for years. Especially having you 
here, he wanted me to extend his regrets for that.
    Later this morning, the President-Elect, President-Elect 
Obama, is going to be speaking about the economic crisis and 
the need for an immediate stimulus package. That is something 
that I think all Republicans and Democrats agree we have to, in 
probably the most severe--certainly the most severe--economic 
period of my lifetime.
    So it's fitting that in the Judiciary Committee's first 
hearing of this new Congress we consider the urgent need for 
more Federal assistance to State and local law enforcement 
during this economic crisis. Families across America find their 
economic security increasingly at risk, and the possibility of 
increased crime during this recession means they may also find 
their day-to-day safety and security are at risk.
    With unemployment on the rise, cities and towns are cutting 
budgets, including critical funding for police. We have to act 
quickly and decisively to shore up State and local law 
enforcement or face reversal of the really great strides we 
made in the '90s at reducing crime.
    The new Congress has appropriately focused on how best to 
turn our economy around and help those most in need, and an 
effective way to protect our citizens and create jobs, that 
begin rebuilding our economy and our communities, with 
confidence, would be to restore Federal support for State and 
local law enforcement, which has been so severely cut during 
the past eight years.
    I know that Congress, in a bipartisan effort, in the 
Clinton administration supported America's law enforcement like 
never before. It helped to put 100,000 new officers on the 
street and we saw an historic decline in crime rates.
    But it stalled when the current administration gutted 
Federal funding for State and local law enforcement, cutting it 
by billions. Whether one is for or against the war in Iraq, the 
idea that we took the money from American law enforcement to 
give the money to law enforcement in Iraq did not make a great 
deal of sense. Iraq has a huge budget surplus; we have a huge 
budget deficit. I think that I would like to see us worry more 
about law enforcement in America than law enforcement in Iraq.
    So we have to act now. We have got to do something to 
reverse the nearly 50 percent reduction in overall funding for 
State and local law enforcement. In fact, if Congress had not 
stepped in, these cuts would have been even greater. There has 
been the gutting of assistance to State and local crime 
prevention programs, even though we know that they do prevent 
crime. Local law enforcement depends on local tax revenues. We 
know those are starting to fall, with the economic downturn. 
Police departments are going to find even further cuts.
    So as crime escalates there are going to be fewer officers 
and resources to protect us, and I think we have to act now. I 
think if we can allow State and local forces to fill vacancies 
and hire new officers and staff, it is going to help to jump-
start our economy. These are good middle-class jobs for middle-
class people, and they can be filled immediately. They are 
often jobs where people live in the hardest-hit communities, 
who spend their money close to home.
    So it helps. Supporting State and local law enforcement 
helps economic development in another important way, too. As 
many of our neighbors become safer, property values rise, 
businesses open, they thrive, local economies prosper. If crime 
returns to these newly prosperous neighborhoods, then business, 
homeowners, and the economy suffer. I believe we should restore 
the COPS program and the Byrne Justice Assistance Grant Program 
to the levels that worked so effectively in the '90s.
    Crime is not just a big-city issue. As the Judiciary 
Committee heard at hearings in St. Alban's in Rutland, Vermont, 
the drugs and violence long seen in urban areas now plague even 
our most rural and remote communities, and ironically the rural 
and remote communities usually have the least ability to 
respond to it. They don't have the sophisticated task forces. 
They don't have the specialized squads so common in big cities 
and metropolitan areas.
    On the first day of this Congress, I introduced the Rural 
Law Enforcement Assistance Act to ensure that rural communities 
hit hard by crime and by the recession get the help they need. 
I would like to make sure that crime victims are not doubly 
penalized, first by being hit with a crime, and then being 
denied assistance and compensation. We could prevent that by 
doing something that doesn't cost a dime in Federal taxes, and 
that is to raise the cap on the Crime Victims' Fund so that we 
could send more money to the States for crime victims.
    So, we have people who bring important perspectives to 
this. I have known Chief Schirling of Burlington for many 
years. I knew him long before he was chief. He used to work on 
some of the first high-tech capabilities, with the Internet and 
whatnot, to attack crime in Vermont. One of the reasons he was 
picked as chief is that he was one of the first to understand 
the innovative ways that could be used to face challenges 
today.
    He's been a leader in the fight against crimes against 
children, which is especially important, as a parent and a 
grandparent. Of course, we have, as I mentioned, Commissioner 
Ramsey of Philadelphia here; former Associate Attorney General 
Schmidt, I know very well; Ms. Leary, from the National Center 
for Crime Victims; Mr. Muhlhousen--it is pronounced ``housen'', 
right? Muhlhousen?--from the Heritage Foundation.
    I want to thank others in law enforcement who submitted 
letters and written testimony: the National Association of 
Police Organizations (NAPO); the Fraternal Order of Police; 
National Association of Black Law Enforcement Executives; the 
National Troopers Coalition; the National Sheriffs Association. 
Their statements will be placed in the record.
    [The statements appear as a submission for the record.]
    Our first witness, as I said, will be Michael Schirling, 
Chief of the Burlington Police Department since January of 
2008. He previously ran the Burlington Police Department's 
Administrative Services Bureau, the Emergency Management and 
Homeland Security Protective Service Bureau in training and 
recruitment. He joined as a uniformed officer in '93.
    In '99, he helped found the Vermont Internet Crime Task 
Force and has continued as coordinator of the task force ever 
since. He was a State leader in computer forensics, a co-
founder of the Digital Forensic Technology program at Champlain 
College in Burlington. He received his bachelor's degree in 
Political Science and a Master's of Education Leadership and 
Policy Development from the University of Vermont.
    Chief Schirling, I'm delighted to have you here. It's good 
to see you again. Please go ahead.

STATEMENT OF MICHAEL E. SCHIRLING, CHIEF OF POLICE, BURLINGTON 
                POLICE DEPARTMENT BURLINGTON, VT

    Chief Schirling. Thank you, Mr. Chairman. It's a pleasure 
to be here. Thank you for the invitation to appear. I'm pleased 
to be here this morning to discuss the challenges confronting 
small cities and rural law enforcement, and how the Federal 
Government can renew its commitment to the safety and vibrancy 
of our communities at this crucial time of economic downturn.
    My written testimony captures the bulk of my thoughts and 
thoughts from other law enforcement leaders in Vermont and in 
the region on these issues. This morning, I'll try to be 
succinct.
    Over the last 10 years, our policing paradigm in Burlington 
has shifted from a response-based model to one embracing the 
core tenets of community policing partnership and problem 
solving, with an eye toward preventing crime and mitigating 
disorder on our streets, in our neighborhoods, and our downtown 
using a variety of methods and employing the resources of a 
host of stakeholders. Many of those initiatives have been 
funded or seeded with Federal support.
    We believe, in addition to traditional law enforcement 
activities, such as enforcement of investigative initiatives, 
that those things are important. Increasingly, law enforcement 
must focus on education and prevention, as well as outreach and 
intervention, in an effort to stem the tide of crime by 
reaching youth, the disenfranchised, and the service-resistant 
at a neighborhood level. Policing is no longer one-dimensional.
    Over the course of this paradigm shift in the last decade, 
we have had a variety of successes: successful neighborhood 
policing, partnerships in parallel justice to support victims, 
community support programs to mediate and do intervention with 
citizens in conflict before it reaches the level of crime, 
partnership in putting mental health workers out on the street 
to mitigate crime and disorder, and extensive partnerships with 
Federal, State, and local agencies on a host of issues, from 
child sexual exploitation to Internet crimes against children 
and drug operations.
    While we've met success using this model, we face a variety 
of continuing challenges, including: the recruitment and 
retention of qualified employees, including police officers; 
shifts in violent crime from larger urban areas to smaller 
cities in rural jurisdictions; stresses created by the 
burgeoning drug trade, not only in illicit drugs, the classic 
drug trade model, but increasing stresses related to the trade 
and trafficking in prescription medication and the ancillary 
crime that goes with that, the increases in robberies at 
convenience stores, pharmacies, car breaks, burglaries, and 
things that support that drug trade; the continuing challenges 
posed by computer and Internet crime and the emerging 
challenges of increasingly mobile devices and the way in which 
they facilitate criminal activity.
    There has been significant progress in our national efforts 
to stem the tide of crime, however, there is much work 
remaining to be done. Increases in violent crime, drug sales, 
and gang activity in some parts of America correspond directly 
to the substantial decline in funding for State, tribal, and 
local law enforcement from the Federal Government.
    The economic recession will have a significant additional 
impact on local and State funding streams, as they are 
stretched to their limit. The economic turmoil has caused 
concern for public safety resources, because maintaining safe 
communities is arguably one of the key elements of economic 
vitality and growth for any community.
    Ensuring that the resources exist for America's 18,000 law 
enforcement agencies and 800,000 police officers to continue to 
combat crime in a successful manner will require a renewed 
commitment to historic funding streams, such as Community 
Oriented Policing, (the COPS program), and awards such as the 
Edward R. Byrne Memorial Justice Grant Program.
    Without that renewed assistance, we'll face cuts in 
personnel, inability to fund critical equipment needs, such as 
bullet-proof vests, communications and technology projects, 
reductions in the ability to pay for special operations, drug 
initiatives, traffic safety initiatives, computer and Internet 
crime, an erosion of resources to support victims and survivors 
of crime, and diminishing resources to deal with challenged 
populations, such as those suffering mental illness and 
substance abuse.
    We're doing all we can to protect communities at this 
point. It's essential for law enforcement programs like the 
ones I mentioned, COPS and Byrne, to be fully funded in 2009 
and the years that follow. With your help and our commitment to 
a safer America, we can continue to make great strides.
    I'd just like to thank you once again for the invitation to 
be here today and for taking testimony on this important set of 
issues, and most importantly for your continued leadership and 
assistance on law enforcement matters nationwide.
    Chairman Leahy. Thank you.
    I'll tell just one story about Chief Schirling. Recently, 
Bob Mueller, the head of the FBI, was in Burlington. The Chief 
had worked, with others, on a particularly egregious crime we 
had in Vermont, and organizing of the State and local and 
Federal authorities to solve the crime.
    So I brought the Director of the FBI over to the Burlington 
Police Department to meet all the people who worked on the 
crime, and he had followed the crime personally, called me 
different times during the investigation, and he wanted to 
thank everybody for what they did.
    What the Chief did, was find an old photograph, something I 
had totally forgotten about. When I was a Prosecutor, I used to 
go out on the pistol range with the police at least once a year 
and qualify. I still have a pistol range behind my home in 
Vermont. I should tell you, Commissioner, we live way out in 
the country.
    [Laughter.]
    I recall the Director commenting, not so much on my prowess 
with a sidearm, because I did qualify every year with them, but 
the fact that I had hair at the time.
    [Laughter.]
    Commissioner Ramsey was appointed Police Commissioner of 
the Philadelphia Police Department on January 7, 2008. As 
Commissioner, he leads the fourth largest police force in the 
country. Prior to his appointment, he served as Chief of Police 
for Washington, DC's Metropolitan Police Department from '98 
through 2006, longer than any other chief since DC's home rule 
began. He implemented innovative community policing strategies 
and helped lower the crime rate by almost 40 percent. He began 
his career with the Chicago Police Department, where he served 
nearly 30 years in a variety of positions. He holds a 
Bachelor's and Master's degree in Criminal Justice from Lewis 
University. He graduated from the FBI National Academy and the 
National Executive Institute.
    Commissioner, we're delighted to have you here. Please go 
ahead, sir.

     STATEMENT OF CHARLES H. RAMSEY, POLICE COMMISSIONER, 
   PHILADELPHIA POLICE DEPARTMENT PHILADELPHIA, PENNSYLVANIA

    Commissioner Ramsey. Thank you, and good morning, Mr. 
Chairman. Thank you for this opportunity to discuss the future 
of our Nation's law enforcement agencies at such a critical 
time in our history.
    My testimony here today reflects not just the experience of 
the City of Philadelphia or the Philadelphia Police Department. 
Our experience, especially at this time, is not unique. Federal 
support for municipal police organizations has been declining 
steadily since the horrific attacks of September 11, 2001 in 
favor of Homeland Security funding.
    From 2001 until now, local police have received 81 percent 
less financial support, from $2.1 billion to $400 million, for 
initiatives such as additional personnel hiring and technology 
grants. I would submit, however, that this is not an either/or 
proposition, either defend the homeland or fight crime. In 
looking forward, the Federal Government can, and should, 
support local police in both grants for crime reduction and 
Homeland Security.
    At its highest, the Philadelphia Police Department received 
almost $32 million in Federal grants for crime reduction in 
1996. Last year, in 2008, we received $3.5 million in Federal 
funding. Not only do we as local law enforcement agencies share 
a similar history with decreasing Federal investments, but we 
all share the present experience of being in an economic 
recession. No city or State has been spared from this 
recession. Local governments across the country are facing 
extraordinary budget shortfalls, necessitating cut-backs in 
services, programs, and personnel.
    The public safety sector is not immune and the consequences 
for our cities, large and small, are very real. Local police 
agencies are the primary agency in any municipal government for 
preventing, responding to, and reducing crime, violence, and 
terrorism. A strong and economically viable city will have a 
strong, capable, and well-trained local police agency as its 
foundation.
    With cities and States universally scaling back their 
police operations infrastructure, reducing or canceling academy 
classes, cutting back investigation and patrol overtime, 
slowing their financial investment in technology, and 
implementing hiring freezes for sworn and civilian positions, 
all of us--police, local, State, and Federal Government--have a 
stake in ensuring that public safety for the citizens in this 
country is not compromised.
    Providing Federal support to local and State law 
enforcement agencies during this economic downturn is an 
investment in the growth and success of this Nation's future. 
If we are able to build a sustainable future for our cities and 
States--and that is one of the core issues here, 
sustainability--then the Federal Government must partner with 
local police departments in offering dependable and meaningful 
support.
    Criminologists, social scientists, and statisticians have 
rigorously studied policing in this country for over 40 years. 
One area that has received much inquiry is the positive impact 
of targeted policing initiatives through increased personnel in 
particularly crime-ridden areas. I have also been in this 
profession for over 40 years, and based on my experience, the 
most influential deterrent to crime is a highly visible and 
well-trained uniformed patrol division. More personnel not only 
deters those would-be criminals from breaking the law, but 
contribute to a sense of safety and well-being to our law-
abiding citizens that is intangible and invaluable.
    In Philadelphia in particular, Mayor Michael Nutter and I 
set aggressive goals for the Department in January of 2008 and 
worked diligently to reduce the level of violent crime in the 
city. Homicides in 2008, compared to 2007, decreased by 15 
percent, or 60 fewer homicides; shooting victims, by 11 
percent; and our homicide clearance rate reached 75 percent. 
Those were accomplished by returning more officers and 
specialized units to uniformed patrol in order to increase the 
size of our patrol force.
    In light of the current budget constraints, the 
Philadelphia Police Department will be unable to hire an 
additional 200 officers originally planned in the beginning of 
the 2009 fiscal year. More police equal less crime, a formula 
that, when directed using evidence-based policing principles 
such as targeting hot-spots where violence is 
disproportionately high, is a crime-fighting strategy with 
which I agree.
    Additionally, the Philadelphia Police Department must 
reduce our use of all over-time, while maintaining our progress 
and our presence on the street. Driving down crime in the years 
to come, not just for us but for all local police, will present 
an even greater challenge in this economy.
    Four areas common to all law enforcement agencies have 
emerged as a focal point for Federal support for local police 
over the past 10 years: hiring law enforcement personnel, both 
sworn and key civilians; training and technology grants; 
increasing Homeland Security funds for use locally, such as 
reinstating the Law Enforcement Terrorism Prevention Program; 
and increasing flexible grant assistance through the Edward 
Byrne Memorial Justice grants.
    The opportunities afforded to local police agencies via 
Federal grants for personnel hiring through the COPS program 
are so vitally important to all of us now. It is not just sworn 
positions, however, that are in need of effective crime 
fighting. Increasing the number of civilian positions in the 
area of forensic sciences, specifically ballistics, DNA 
analysts and technicians, and intelligence and crime analysts, 
also provides an essential complement to our local policing 
agencies. Bringing these civilian positions in to police 
organizations allows a greater number of officers to be 
redeployed to the street.
    Police hiring grants and law enforcement technology grants, 
totaling $950 million, comprise the cornerstone of the COPS 
Improvement Act of 2007, introduced by Senator Biden with 35 
co-sponsors, including yourself as the Senate Judiciary 
Committee Chair, and Ranking Member Specter, in March of 2007.
    Both IACP, the International Association of Chiefs of 
Police, and the Major City Chiefs endorse this important Act. 
Although the bill did not pass the House of Representatives, 
the funding priorities still remain the same today and would 
provide local police with the much-needed assistance required 
to fight crime successfully.
    Lastly, in considering how the Federal Government can 
partner effectively with local and State police, we should not 
lose sight of one of the most potent weapons in our arsenal, 
that of prevention. Long-term and sustainable solutions to 
crime and violence must include prevention initiatives, 
spanning from early intervention to reentry, and providing 
victim services. Groups such as the National Crime Prevention 
Council, Fight Crime, Invest in Kids, the National Center for 
Victims of Crime, work with police departments across the 
country to educate our youth and others to promote healthy and 
viable communities.
    Federal funding that provides inter-governmental 
cooperation and assistance between local law enforcement 
agencies, prevention, and service organizations will go a long 
way toward making us all safer in the future.
    Thank you for giving me the opportunity to testify.
    [The prepared statement of Commissioner Ramsey appears as a 
submission for the record.]
    Chairman Leahy. Thank you, Commissioner. As I said before, 
it's good to see you again.
    John Schmidt is currently a partner at the law firm of 
Mayer Brown in Chicago, Illinois. He specializes in large-scale 
government transactions and litigation. But where I knew him 
before that was when he served as Associate Attorney General in 
the Department of Justice from 1994 to 1997. He oversaw the 
implementation of the 1994 crime bill and the then-new COPS 
program. We worked closely together, as many Senators on both 
sides of the aisle did, during that time.
    He received his Bachelor's degree from Harvard College, his 
J.D. from Harvard Law School, and we're glad to have you here, 
Mr. Schmidt. Please go ahead.

STATEMENT OF JOHN R. SCHMIDT, PARTNER, MAYER BROWN CHICAGO, IL 
 FORMER ASSOCIATE ATTORNEY GENERAL, U.S. DEPARTMENT OF JUSTICE

    Mr. Schmidt. Thank you, Mr. Chairman. I'm delighted to be 
here. I really commend you for holding a hearing on this 
subject. I believe very strongly that unless Congress provides 
substantial assistance now to State and local law enforcement 
in this country, we are going to see a real decline in the size 
of police forces across this country, and that in turn is going 
to produce a significant increase in crime and violence, and as 
you indicated in your opening remarks, I think a roll-back and 
a regression from the enormous progress we made over the last 
15 years in bringing safety to communities across this country.
    As you indicated, my own particular involvement with 
Federal assistance for local law enforcement came about in 
1994, when Congress passed the crime bill, as you indicated, 
with a lot of hard work from a lot of people on this Committee 
on both sides of the aisle. A key element of that was the COPS 
program, to put 100,000 additional officers into communities in 
this country, and the Attorney General and the President asked 
me to take responsibility for that program.
    I think that program is a very useful precedent, as you 
think about what can and should happen now. It not only showed 
how effective Federal assistance can be, it showed how quickly 
the impact can be felt. To give you an idea of how quickly we 
moved in 1994, after the bill was passed by Congress, before 
the President had even signed the bill, I had a meeting with a 
delegation from the U.S. Conference of Mayors in which we 
agreed that if they would tell us then how many officers they 
were prepared to begin hiring and training, we would tell them 
then the level of funding they could be assured of receiving. 
That was a minimum level; they could come back later.
    We did that, and the result of that was that, within a 
matter of weeks after the signing of that bill, we had officers 
across the country into training academies. I think if Congress 
provides assistance of that kind today, there will be a similar 
reaction among local law enforcement, because I think in many 
ways the need is arguably even greater today.
    In '94, we had a situation where we had communities all 
across the country, with absolutely intolerable levels of crime 
and violence, and we had to increase police forces very 
substantially to enable police to work with communities and 
bring that level of violence down. We did that over the '90s. 
By the end of that decade, we had increased sworn officers in 
this country by over 100,000 officers, most of them funded 
initially with Federal money. As you indicated, crime rates had 
come way down.
    From that point on, there has been essentially no Federal 
funding available for increased hiring. Fortunately, the 
condition of the economy in this country was such that those 
communities were overwhelmingly able to keep those higher 
levels of police force in place and they were able to fund them 
on an ongoing basis. So since the end of the '90s there's been 
no significant increase overall, but we've had relative 
stability in the level of police forces.
    We then had one very important thing happen: we had 9/11, 
which put huge additional burdens on State and local law 
enforcement. So I think even with those stable levels of force, 
we came into this current period of economic crisis with law 
enforcement under real strain.
    But what we are now seeing are real declines in the size of 
police forces. It's taking the form of not filling vacancies, 
and beyond that it's taking the form of outright lay-offs. I'll 
give you my home City of Chicago as a good example. Chicago, as 
Chief Ramsey, as I call him, knows well, is a city that really 
prides itself on support for its police department. The last 
thing any mayor wants to do is stand up and say, I'm reducing 
the size of the Chicago Police Department. That is, in fact, 
what has happened.
    The mayor's budget for 2009, passed very reluctantly by the 
city council, achieves a balanced budget in the face of 
severely declining revenues only by slowing down on the filling 
of vacancies. The total number of vacancies was over 400 at the 
end of last year. Turnover is going to continue. They're going 
to fill only 200. Chicago, I don't think, is in the worst 
shape.
    The worst example I've heard about is Pontiac, Michigan, 
where the economic decline is such that they've actually had to 
reduce their police force by over 50 percent, and they are 
experiencing a dramatic increase in crime rates. But it's not 
geographically limited. I saw a story the other day about 
Sacramento, California which had managed--and they were sort of 
priding themselves--to come up with money to fill 11 vacancies 
in the police department, but they had 98 vacancies, over 10 
percent of the police department.
    So I think across this country we are seeing now, on an 
accelerating basis, a decline in the size of police forces. 
That, in turn, is going to result in an increase in crime and 
violence. No one can predict precisely what that increase is 
going to be. It obviously will vary from place to place, just 
as in the '90s the impact of increasing the size of police 
forces was felt at varying levels. But it will be real and I 
think it does present a real risk that we will see, nationwide, 
a falling away from the progress that we've made.
    To me, the answer is pretty straightforward. I would see a 
need for Congress to provide funding to enable police 
departments across the country to fill vacancies, to hire back 
previously laid off officers. I set out in my statement some 
ways that I think that probably needs to be done now that 
differ a little from the way it was done in the '90s, the most 
significant of which is, I don't think the limits that we put 
on COPS grants back in the '90s, which were a maximum of 
$30,000 per officer, per year, and no more than 80 percent of 
the total cost, would work at this point. Those worked in the 
'90s, even though they meant we weren't providing anywhere 
close to the full cost in a lot of places. But that worked 
because localities had the ability to make up the difference.
    I think at this point, to make it work in the current 
economic crisis, you need to provide full funding for some 
period of time, although I think you still have to limit it. I 
think localities will still have to hire on the assumption 
that, within some period of time, such as three years, they 
would have to assume the cost of those officers.
    But I think that can be done, and I set out some numbers. 
The numbers are, in one sense, huge. On the other hand, in 
comparison to the amounts we are spending on other elements, or 
proposing to spend, of economic stimulus, it seems to me they 
are more than justified.
    I would just conclude by saying one word about economic 
stimulus. It seems to me that, from the standpoint of economic 
stimulus, providing money to put additional police officers on 
payrolls in communities across this country, is about as good 
as it can get. I mean, construction projects are great, but 
only 30, 40 percent of that money goes into direct labor. Here, 
every dollar goes to pay the salaries of officers who live and 
work across the country.
    As I was indicating, I think it can happen very fast and 
have an impact that would be felt very fast. It seems to me 
something that you should do, and I urge you to do it and would 
be eager to provide any further help I could on how you develop 
the best means to do it and make it happen as quickly as 
possible.
    [The prepared statement of Mr. Schmidt appears as a 
submission for the record.]
    Chairman Leahy. Well, as you know, I followed this very 
closely during the time when the program began, not only 
because of my own interest as a member of this Committee, but 
my past experience in law enforcement. I watched it not only in 
my own State,--we're a border State. We have a lot of problems 
because of transshipping, through Vermont from metropolitan 
areas, drugs and other things.
    But I have also seen it around the country. We've held 
hearings in other parts of the country, where I've dealt with 
police agencies throughout the Nation. It's one of those 
government programs that actually works. I agree with you that 
we may make some adjustments for today's economy and today's 
economic restrictions, but the basic concept still works.
    Mary Lou Leary is currently the executive director of the 
National Center for Victims of Crime, where she's served since 
2004; again, no stranger to this Committee. She's worked with 
us on a lot of legislation and been extraordinarily helpful in 
doing that.
    She previously served as the U.S. Attorney for the District 
of Columbia, as Acting Assistant Attorney General for the 
Office of Justice Programs. As a leader of the Office of 
Justice Programs, she oversaw the Department of Justice's 
Office for Victims of Crime and the Office of Violence Against 
Women. She previously served as the Acting Director of 
Community Oriented Policing Services at the Department. She 
earned her Bachelor's degree in English literature in Syracuse, 
her Master's in Education at Ohio State University, her law 
degree at Northeastern University School of Law.
    Ms. Leary, it's good to see you again. Thank you for being 
here.

 STATEMENT OF MARY LOU LEARY, EXECUTIVE DIRECTOR, THE NATIONAL 
           CENTER FOR VICTIMS OF CRIME WASHINGTON, DC

    Ms. Leary. Thank you so much. Good morning, Chairman Leahy 
and Senator Whitehouse. I am the executive director of the 
National Center for Victims of Crime. For over 20 years, the 
National Center for Victims of Crime has worked in a variety of 
ways to make sure that victims have the rights, the resources, 
and the respect that they need to recover from crime and 
rebuild their lives.
    We want to thank this Committee for giving us the 
opportunity to speak this morning to the important issue of the 
need to fully fund victim services and local law enforcement 
response to crime in our communities. For the past eight years, 
the issue of crime in our communities has been sorely neglected 
at the Federal level. As important as homeland security is, the 
safety of our neighborhoods is just as critical to domestic 
tranquillity. We hope that this hearing will encourage the 
incoming administration, and Congress as a whole, to refocus 
attention on this issue.
    I'd like to take a couple of minutes to talk about the 
increase in victimization that we are seeing across this 
country. Is there a relationship between the economic downturn 
and rates of victimization? Well, there's always a time lag 
before the official statistics, like the UCR, would reflect any 
such relationship. But we do know that, according to the U.S. 
Conference of Mayors in a 2008 study, we are seeing an increase 
in crime as a result of worsening economic conditions. That 
report was issued in May of 2008. Things have only gotten a lot 
worse since that time.
    But regardless of how direct the correlation may be between 
economic downturn and increase in crime, during the past year, 
victim service professionals across this country have seen a 
very clear increase in victimization and victim need, coupled 
with significantly reduced funding to respond to this crisis.
    At the National Center alone, we've seen a 25 percent 
increase in calls to our National Crime Victim Help Line. Hot-
lines and crisis lines across the country are seeing similar 
increases, as job losses and economic stress factor into 
increased violence in our homes and in our communities.
    You know, we recently polled the members of the National 
Center to find out what was happening in their communities. 
What they told us can only be described as a crisis in the 
Nation's ability to respond to crime. I'd like to share a 
couple of their responses with you.
    First of all, 92 percent reported an increase in 
victimization in the last year--robberies, property crimes, 
domestic violence--and many of them also mention that there's 
an increase in violence accompanying this crime, so it's not 
just a robbery, it's a robbery with a dreadful beating.
    Some of the comments we received are listed in my 
testimony, things like, ``I've seen my victim base double in 
the past year.'' ``We've had a 143 percent increase from 2005 
to 2007,'' ``a 34 percent increase in victim services'' in a 
domestic violence shelter. But many of them also told us that 
victims are requiring more services and many different kinds of 
services, things they haven't seen before.
    For instance, because of the increased cost of living and 
rising unemployment, victims are requiring much longer stays in 
emergency shelters. Nearly 90 percent of the respondents to our 
survey told us that they believe that this increased demand for 
victim services was linked to economic conditions, based on 
what they heard from the victims.
    The link between financial stress, alcohol use and 
violence, increased requests for victim compensation because 
victims--many of them no longer have insurance to cover crime-
related losses, or they're folks who used to be treated at, 
say, senior centers, mental health centers, and other programs 
that have been down-sized or closed.
    At the same time, victim service providers across this 
country are totally strapped for funding. Especially, we heard 
from service providers in rural areas, where victims face 
really unique challenges with access to services, compromised 
privacy in a small community, and services that are actually 
having to close their doors because of funding.
    In the rural area, one prosecutor told us, ``if our victim 
services program goes away, there will be no one in this county 
to help victims of crime.'' How can we address this crisis?
    I'll just say, briefly, that we understand budgets are 
tight, but we believe that smart investments by this Congress 
can help save millions of dollars that would otherwise be lost 
as a result of harm suffered by victims of crime, and at the 
same time could significantly improve services to victims.
    Very briefly, I would say, number one, in our view, the 
very best way for Congress to support a more effective response 
to victims is through releasing additional VOCA funds. You all 
know what the VOCA fund is and how critically important it is, 
but please note that for the past several years there's been a 
cap on these funds, hovering around $625 million. But last year 
it was decreased. At the same time, the balance of the fund has 
grown to $1.9 billion. About $896 million was collected in FY 
'08 alone. That's the third largest amount deposited in one 
year in the entire history of the VOCA fund. There are 
indications that FY '09 will be another record year.
    Therefore, Congress can easily, we submit, release 
additional VOCA funds with no impact on the overall budget 
figures and no fear of draining the fund. Another important 
source of funding is VAWA. We urge Congress to fully fund those 
programs that were authorized in 2005 and have yet to receive 
their authorized funding: Advocates for Youth, Access to 
Justice for Youth, Sexual Assault Services Program, and the 
Expanded Services for Rural Victims Program. They are 
authorized but not appropriated at the levels that they 
desperately need.
    The Byrne Justice Assistance Grants. We urge Congress to 
look seriously at that. It's the most flexible and innovative 
grant program out there to help communities address the needs 
not just of law enforcement, but prosecution, defense, 
specialized courts, and, in our view, very importantly, victim 
services.
    My testimony lists several examples of very innovative uses 
of Byrne grant funding that has directly improved services to 
victims or improved access for victims to justice.
    In sum, demand for victim services is up. Critical services 
are being cut and Congress can, and should, make a difference. 
You have the tools already in VAWA, in VOCA, the COPS office, 
the Byrne grants, and funding for at-risk youth. We urge you to 
use those tools and use them swiftly. Victims of crime across 
this country are counting on you.
    Thank you.
    [The prepared statement of Ms. Leary appears as a 
submission for the record.]
    Chairman Leahy. Thank you.
    David Muhlhousen is a Senior Policy Analyst at the Heritage 
Foundation at the Center for Data Analysis. Dr. Muhlhousen has 
testified before Congress on several occasions about law 
enforcement grant programs, particularly the COPS program. He 
obviously has a different view than some of the witnesses we've 
heard today.
    He received a Ph.D. in Public Policy from the University of 
Maryland, Baltimore County, and his Bachelor's degree in 
Political Science and Justice Studies from Frostburg State 
University. He is currently an Adjunct Professor of Public 
Policy at George Mason University.
    Please go ahead, Dr. Muhlhousen.

STATEMENT OF DAVID B. MUHLHAUSEN, Ph.D. SENIOR POLICY ANALYST, 
            THE HERITAGE FOUNDATION, WASHINGTON, DC

    Dr. Muhlhousen. Thank you. My name is David Muhlhousen. I 
am a Senior Policy Analyst in the Center for Data Analysis at 
the Heritage Foundation. I thank Chairman Leahy, Ranking Member 
Specter, and the rest of the Committee for the opportunity to 
testify today.
    The views I express in this testimony are my own and should 
not be construed as representing any official position of the 
Heritage Foundation.
    While Congress is developing legislation intended to 
stimulate the economy, interest groups are lining up for their 
share of what is rapidly becoming a political Christmas tree. 
In keeping with this theme, Congress may add funding for the 
Office of Community Oriented Policing Services to the economic 
stimulus package.
    My testimony will focus on six points. First, COPS 
encourages local officials to shift accountability for funding 
local police departments toward the Federal Government. A prime 
example is the City of Boston. Boston accepted millions of 
dollars to hire additional police officers. As part of the 
condition to receive the grants, Boston was supposed to retain 
these officers after the grants expired. Once the grants 
expired, Boston's mayor downsized the city's police force, and 
then the mayor blamed the Federal Government for not providing 
additional funds to maintain staffing levels.
    Second, adding COPS funding to the economic stimulus 
package will do virtually nothing to stimulate the economy. A 
study by Professor Steven Miller of the University of Nevada, 
Las Vegas found that increased funding for intergovernmental 
transfers and total expenditures for transportation and public 
safety to be negatively associated with economic growth on the 
State level.
    Third, increased government reduces economic growth. 
Government spending crowds out private spending, especially 
private sector investment spending that would have elevated 
productivity. Government spending infused into the economy must 
first be taxed or borrowed out of the private sector. This 
transfer can only be efficient if the government spends the 
money more effectively than the private sector, an unlikely 
scenario. Numerous studies demonstrate that the increased size 
of government reduces economic growth.
    Fourth, claims of a forthcoming violent crime epidemic are 
overstated. Overall, America is a much safer place compared to 
15 years ago. The most recent National Crime Victimization 
Survey found that rates for every major violent crime and 
property crime were at, or near, the lowest levels recorded 
since 1973.
    Fifth, COPS has an extensive record of poor performance. A 
Heritage Foundation evaluation of COPS grants, using data from 
1990 to 1999 for 58 large cities, found that the grants had 
little to no effect on crime. The hiring grants failed to have 
a statistically measurable impact on murder, rape, assault, 
burglary, larceny, and auto theft rates. Although the hiring 
grants were associated with a slight decrease in robberies, the 
meager effect suggests that additional funding will do little 
to reduce crime.
    In addition, the evaluation found that COPS grants were 
used to supplant local police spending. This finding is 
supported by multiple audits by the Justice Department's 
Inspector General. The Inspector General found that cities 
failed to hire the number of officers required and did not 
comply with other grant conditions.
    In Washington, DC, the police department was awarded almost 
$11 million in Moore grants to redeploy 521 officers from 
administrative duties to community policing. When the Inspector 
General asked for a list of redeployed officers, the list 
included only 53 officers. Of the 53, one was deceased, 10 were 
retired, and 13 no longer worked for the department.
    Sixth, combatting ordinary street crime is the principal 
responsibility of State and local governments. If Congress 
wants to aid in the fight against crime, it should limit itself 
to unique rolls that only the Federal Government can play. The 
Federal Government should not become a crutch on which local 
law enforcement becomes dependent.
    The inclusion of COPS funding in the economic stimulus 
package will not assist in an economic recovery, nor will it 
make a substantial contribution to the reduction in crime.
    Thank you.
    [The prepared statement of Dr. Muhlhousen appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Doctor. Incidentally, 
Senator Feinstein asked that her statement be placed in the 
record, and will be.
    [The prepared statement of Senator Feinstein appears as a 
submission for the record.]
    Chairman Leahy. Senator Kohl regrets he can't be here 
today. He's introducing the COPS Improvements Act this morning. 
I'm happy to be an original co-sponsor of that Act.
    Incidentally, Dr. Muhlhousen, could I just ask you--and 
you've been very consistent in your feelings on this matter. 
Have you ever taken a position on the hundreds of millions--
even billions--that we spend on police departments in Iraq? Are 
you in favor or opposed to that?
    Dr. Muhlhousen. It's not really an issue that I've studied. 
While I wish we have tremendous success in Iraq and I hope that 
we can turn that country around, that's an issue that I would 
defer to other Heritage experts.
    Chairman Leahy. I would just note parenthetically that, of 
the huge amounts of money that have gone there, we found, in 
many instances, the police departments end up shooting each 
other. We've had thousands upon thousands of firearms sent over 
there and we can't even find where they are, until they're used 
against Americans. Yet, that's been an unlimited amount of 
money that we spent on those law enforcement. My point being 
only that I wish we'd spend as much time worrying about law 
enforcement in the United States as we do law enforcement in 
Iraq.
    Chief Schirling, one of the reasons I wanted you here, 
aside from our own personal and professional association, is 
that I worry not only about large cities, as we all do, but 
about small cities and towns like Burlington. That's why I held 
the two hearings I've had in the past year in Vermont--Senator 
Specter was there for one of those--and why I introduced the 
Rural Law Enforcement Assistance Act of 2009, directly aimed at 
staffing for rural--staffing and training for rural law 
enforcement officers.
    You describe the cuts you expect to make in the coming 
year, given the economic downturn. You mentioned cutting 
officer staff, delaying the purchase of new communications 
equipment, bullet-proof vests, and so on. If we were to 
increase Federal COPS and Byrne grant funding, including a 
rural law enforcement assistance grant funding, first, would 
that help you avoid these painful cuts? Would you be able to 
use the money, virtually immediately?
    Chief Schirling. Thank you, Mr. Chairman. The short answer 
is yes. Not only at our department, but in other rural agencies 
throughout Vermont and the region, I think that money could be 
used almost immediately to stem the tide of cuts in officers 
and key support personnel and technology programs, and a host 
of other possible initiatives, to include training.
    I think it's important to note that, as we look at creative 
crime prevention and crime-fighting strategies, that some 
agencies may be looking to fund critical support positions, as 
Commissioner Ramsey indicated. There are key civilian positions 
that can help get officers back on the street out of 
administrative assignments, or bolster what officers do, or 
bolster the support that officers have and essentially act as a 
force multiplier.
    So, for example, if you deploy social service 
practitioners, substance abuse clinicians, or mental health 
practitioners in certain areas, you may be able to manage 
problems without using the resources of a police officer and 
allow that police officer to focus on standard investigations 
and crime prevention types of activities. So there are a 
variety of things that would be helpful, and I think many of 
them could be implemented fairly quickly.
    Chairman Leahy. Well, it's interesting. Marcelle and I are 
in Burlington several times a month, as you know, and have been 
talking to different police officers and those who work in your 
department and surrounding departments. They live in the area. 
They have an effect in the area, homes in the area. Is it over-
simplistic to say, if you cut these positions, it has an 
economic adverse effect, but if you add these positions it has 
an economic positive effect?
    Chief Schirling. I don't think that's an over-
simplification. I think that makes perfect sense. Any job that 
you add--the economists, at least in the Vermont area, indicate 
a single job created actually supports upwards of 10 ancillary 
jobs in service industries, grocery stores, convenience stores, 
gas stations, and things like that.
    So every job has an impact. As important as that direct 
impact, is the need, I think, to make sure that the climate for 
economic growth is a good one. So a safe community, someplace 
that people want to come and vacation, spend their dollars, 
visit relatives, or even move to, is critical in the overall 
goal of growing our economy, not only locally, but regionally 
and nationally.
    Chairman Leahy. Well, in fact, in that regard, to pull it 
into a much larger area, in Philadelphia--what is the 
population of Philadelphia, Commissioner, approximately?
    Commissioner Ramsey. It's about 1.6 million.
    Chairman Leahy. So it's about two and a half times the size 
of the population of our whole State. You described in your 
testimony how the City of Philadelphia, back in the mid-1990s, 
received more than $30 million a year in Federal funding. Last 
year, you received about a tenth of that amount. If the money 
was restored, would you be able to hire more police officers, 
and would that have a direct effect on crime and the safety of 
your community?
    Commissioner Ramsey. Yes, sir. Last year, we were very 
successful in fighting crime in Philadelphia, but we are 
nowhere near where we ought to be in terms of levels of crime 
in the city. Even after redeploying numerous officers back to 
street duty, really tracking activity using every tool we had 
available to us, we were able to have a decrease in crime.
    But additional personnel would certainly be beneficial and 
allow us to push the rates down even further. Just like Chief 
Schirling mentioned, the safer the community, the more likely 
you're going to have businesses invest, the more likely you're 
going to have increased tourism, and the like.
    But I'd also like to mention that one of the problems we 
have is being able to hire qualified civilians in certain key 
areas, like in our forensic sciences, intelligence analysts, 
crime analysts, and the like. It would be good if this would 
include that, not just sworn hiring, because a lot of times we 
find ourselves having to either backfill those positions with 
sworn or outsource the work, which is an added expense, and so 
forth.
    So we even--in my testimony, which I shortened for the sake 
of time, one of the suggestions we made is to provide an 
educational subsidy for people interested in pursuing college-
level or advanced degrees in the study of forensic sciences and 
criminology, intelligence, crime analysis, and the like. We can 
encourage young people to get involved in a career in law 
enforcement not just on the sworn side, but there are other 
areas that we equally are in need of help.
    Chairman Leahy. And I think you find those non-sworn 
officers, the technicians and all, that's a significant change 
from when you were first a police officer, and a significant 
difference.
    Commissioner Ramsey. It is.
     Chairman Leahy. One of the advantages in this Committee, 
is we've had so many people, so many members of the Committee 
who've had past experience in law enforcement before they came 
here to the Senate. One of those, of course, is Senator 
Whitehouse of Rhode Island, former U.S. Attorney, former 
Attorney General of his State. I have gone over my time, and I 
yield to Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    I welcome the witnesses here. I'd love to ask a question of 
Chief Schirling and Commissioner Ramsey, based on your on-the-
ground public safety experience in your communities.
    We have seen an enormous amount of money spent in this 
country in recent years on a whole variety of programs 
catalogued under the sort of political heading ``homeland 
security''. I think that we've done that at great expense to, 
what I would call, ``hometown security''. I'd love to have you 
give me your kind of from-the-ground evaluation of how you feel 
the availability is of terror-related funding to the public 
safety threat from terror that you see in your communities and 
compare that equation to the availability of funding and 
support for hometown security and protection from crime, 
compared to the public safety problems of crime in your 
communities.
    I mean, there were, what, 17,000 people murdered the last 
year we have numbers for, 2007, murdered or died by 
manslaughter in this country, and yet we seem to be robbing 
that public--nothing against protecting this country from 
terrorism, but when you do so by robbing hometown security at 
the expense of homeland security--in Rhode Island we see sort 
of, you know, these remarkable grants for--I mean, I'm 
exaggerating and making this up a little bit, but basically, 
you know, underwater vehicles--armored underwater vehicles with 
sonar cannons that you can get through homeland security for a 
land-bound municipality, but the COPS program, the Byrne grant 
program, proven programs, slashed 90 percent, endeavor to be 
eliminated by the Bush administration.
    And I'll let you answer that question, but before I do, I 
just want to--one of the reasons that I ask it, is that there 
seems to me to be a very strong--what an economist would call 
externality involved here, and that is that by emphasizing 
homeland security, an administration can emphasize the terror 
threat, and by emphasizing the terror threat can emphasize the 
wartime nature of a presidency, and by emphasizing the wartime 
nature of a presidency, can build in the inherent public 
support for a wartime president.
    That is a political fact going back decades and 
generations. If that's your goal, you're really doing something 
political, not something from a public safety perspective. But 
it could be an important political goal if your agenda, as a 
president, is to do things that are deeply unpopular with the 
American public, harm the American public, supports special 
interests, and need cover in order to be done. So that's my 
sort of political overview.
    I'm not going to make you comment on that. I might get you 
in trouble if I asked you to comment on that. But the 
underlying part, in terms of the balance between terror support 
versus the terror public safety threat in your communities and 
how that's working out compared to the crime and public safety 
hometown security support, versus that public safety threat to 
the people you are responsible for protecting.
    Chief Schirling. Thank you, Senator Whitehouse. I 
appreciate the pass on the comment on the political side of 
things. From our perspective, I think to contrast homeland 
security versus hometown security, there's been an absence of 
funding--an almost complete absence of funding--in our area for 
local law enforcement and hometown security in a steadily 
declining line since 9/11, and simultaneously a steadily 
increasing line in funding related to homeland security 
initiatives. And certainly not to diminish the importance of 
homeland security initiatives, but they do appear to be out of 
balance, from our perspective.
    To suggest that you pour resources into homeland security 
without hitting the 18,000 law enforcement agencies and 
increasing their ability to detect crime, apprehend offenders, 
and provide services to their communities, you're missing a 
piece of that puzzle. Early on in the homeland security 
funding, I think there was more--a little more of an eye toward 
providing those types of resources to local law enforcement, 
but that quickly waned.
    The other, almost intangible factor, is--there's actually 
two. One, that as government, around homeland security, has 
grown, there have been requirements placed on local law 
enforcement, especially those that have transportation 
infrastructure to secure, like an international airport that we 
have, that drain resources without providing enough support. 
There's some support, but not enough support to provide those 
services.
    And the other thing that's happening, is in various 
locations around the country we're actually having difficulty 
recruiting qualified officers, in some instances because we're 
in competition with Federal agencies who are in significant 
pushes to hire agents and security folks. TSA, Air Marshals, 
has expanded by thousands of a percent. The FBI started a 
hiring push earlier this week. I'll take a moment to mention 
for Director Mueller that I mean to send him a no-poaching sign 
in the mail.
    [Laughter.]
    I'll get to that. Thank you. So I think that's our 
perspective.
    Senator Whitehouse. Commissioner Ramsey.
    Commissioner Ramsey. Well, I agree with Chief Schirling. I 
think that when the homeland security issue developed in 2002, 
the funding was siphoned off of the COPS funding into homeland 
security. In my opinion, it's not an either/or proposition: you 
have to do both, and you have to do both equally well. We did 
pick up additional responsibilities. I happened to be the chief 
here in Washington at the time. Obviously, this was a city that 
was of great concern when it comes to homeland security, and a 
lot of our resources went into that.
    But on a daily basis, people and communities are concerned 
with daily crime: burglaries, robberies, thefts. In 
Philadelphia last year, we had 330 homicides. Not a single 
homicide was committed by Bin Laden or anyone associated with 
Al Qaeda. So when you think about what really is driving crime 
in our cities right now, what is scaring people right now, it 
is crime, regular crime.
    I also need to mention, however, that we've been very 
fortunate that we've not had anything happen over the past few 
years. If terrorism is going to take hold in this country, 
they're going to use existing criminal networks in order to 
support themselves. There will be drug trafficking rings, the 
smuggling of cigarettes, all kinds of things that are illegal, 
to subsidize their activities here in the United States.
    So it's very important that we pay attention to both and 
that we identify the potential nexus between what looks like a 
burglary ring and what potentially could be something that has 
implications that go far beyond just your typical auto theft or 
burglary ring. So I think that one of the problems that I saw 
early on with homeland security funding, there were no controls 
over the spending and there was not any real accountability for 
the States or the local municipalities. A lot of money, in my 
opinion, was wasted. People were going out, buying stuff that 
they did not need. There was no accountability in the sense of 
understanding what the return on the investment would be.
    Now, that continues to be a problem, to an extent. So any 
new funding, there needs to really be some careful 
consideration and thought as to how that money is going to be 
used and what's expected of the municipality that receives that 
funding. I think that's only right, otherwise we're just 
throwing money at a problem and not necessarily getting any 
benefit as a result of it.
    We've got to learn to work more in terms of regional 
cooperation. Now, that's taken huge leaps since 9/11, I know, 
certainly here in the Washington area, around Philadelphia, and 
other areas where police departments are working together like 
they've never worked before, and I think we've got to continue 
to push and drive that, to make sure that information systems 
are compatible, we can actually share information.
    The gap that exists between Federal, State, and local law 
enforcement in terms of information sharing is better than it 
was, but it's not where it really needs to be. You've still got 
a lot of issues with classification of materials and who has 
access to what, who needs to know what, and that sort of thing. 
So it's pretty complicated. Part of this, we need to sit down 
and really think of ways in which we can improve those, and at 
the same time provide funding that's going to really give you 
the maximum return on your investment.
    Senator Whitehouse. Thank you.
    Thank you, Chairman Leahy.
    Chairman Leahy. The coordination. Commissioner, the need 
for better coordination. Your colleague, as Commissioner in New 
York City, has raised--somebody I've known also for years--the 
same issue. It is sometimes hard to break down those barriers, 
but we're going to have to do it. It's probably easier on a 
small scale in rural and small cities and towns.
    Chief Schirling has been very involved, but this involved 
everybody. We've had the chief of police at the University of 
Vermont, the chief of police at the various departments 
throughout Chittenden County, where he is, the sheriffs' 
departments, and the Federal authorities have worked together. 
But there, you know everybody on a very personal basis. You see 
them every day at the grocery store, church, wherever else. But 
we've got to start doing a better job of breaking that down. I 
was concerned about some of the problems over the years in New 
York City, similar problems in some other big cities; I know 
Mr. Schmidt, when he was at Department of Justice, one of the 
things he talked about a lot.
    Ms. Leary, when you talk about the Crime Victims Fund, 
which, as you know, is something I've worked--the former 
Chairman of this Committee, Joe Biden, who is soon to leave the 
Senate for another job, worked so hard on, as did, again, 
members on both sides of the aisle. For those who don't 
understand it, the Victims of Crime Act Fund, that's funded 
through penalties and fines from Federal offenders. It doesn't 
come out of taxpayer money. But it's been capped annually, so 
in recent years, hundreds of millions of dollars have been 
collected, but not allowed to be used to help victims. Do you 
think we should be raising those caps? I realize that's kind of 
a leading, easy question. But tell me about what happens.
    Ms. Leary. No. Absolutely. I would urge Congress to raise 
that cap. Another way to describe it, is release more of the 
funds that are available. These are not taxpayer dollars. This 
money comes directly from fines and assessments on offenders 
and it is designated for the purpose of serving the needs of 
victims throughout the country. Because there have been very 
robust collections, and my goodness, when you read the 
newspaper every day, you can only anticipate that '09 will be a 
real bonus year for the VOCA fund because of all these 
negotiated settlements.
    It seems rather foolish to have all that money available, 
it's supposed to be serving victims, and it's being held back. 
I strongly urge Congress to release more of those funds, to 
raise that cap and really--the problems that are faced by 
victims and victim service providers are at a crisis 
proportion. Victims of crime are really kind of the hidden 
citizens in this country.
    What people don't really understand is that a vast majority 
of them never make it into the criminal justice system, so you 
can't say, oh, let the prosecutors take care of them, let the 
police take care of them. Most of them never get there, and 
they are relying on that little victim service provider in the 
church basement in rural Vermont to help them recover and 
rebuild.
    Chairman Leahy. Thank you.
    As you can tell, we have a dozen hearings going on today, 
including confirmation hearings. Everybody is around in 
different areas. I'm going to put into the record a statement 
by Senator Feingold regarding this hearing.
    [The prepared statement of Senator Feingold appears as a 
submission for the record.]
    Chairman Leahy. We'll leave the record open to all of you 
if there are things you want to add, either to your own answers 
or to the answers of others. The record will be kept open so 
you can do that. If you review your testimony--this is not a 
``gotcha'' kind of hearing. If you review your testimony and 
say, I should have added this, there will be provision to do 
that.
    With that, unless somebody has anything they wish to add, 
we'll stand in recess.
    [No response].
    [Whereupon, at **************** the Committee was 
adjourned.]

[GRAPHIC] [TIFF OMITTED] T3929.001

[GRAPHIC] [TIFF OMITTED] T3929.002

[GRAPHIC] [TIFF OMITTED] T3929.003

[GRAPHIC] [TIFF OMITTED] T3929.004

[GRAPHIC] [TIFF OMITTED] T3929.005

[GRAPHIC] [TIFF OMITTED] T3929.006

[GRAPHIC] [TIFF OMITTED] T3929.007

[GRAPHIC] [TIFF OMITTED] T3929.008

[GRAPHIC] [TIFF OMITTED] T3929.009

[GRAPHIC] [TIFF OMITTED] T3929.010

[GRAPHIC] [TIFF OMITTED] T3929.011

[GRAPHIC] [TIFF OMITTED] T3929.012

[GRAPHIC] [TIFF OMITTED] T3929.013

[GRAPHIC] [TIFF OMITTED] T3929.014

[GRAPHIC] [TIFF OMITTED] T3929.015

[GRAPHIC] [TIFF OMITTED] T3929.016

[GRAPHIC] [TIFF OMITTED] T3929.017

[GRAPHIC] [TIFF OMITTED] T3929.018

[GRAPHIC] [TIFF OMITTED] T3929.019

[GRAPHIC] [TIFF OMITTED] T3929.020

[GRAPHIC] [TIFF OMITTED] T3929.021

[GRAPHIC] [TIFF OMITTED] T3929.022

[GRAPHIC] [TIFF OMITTED] T3929.023

[GRAPHIC] [TIFF OMITTED] T3929.024

[GRAPHIC] [TIFF OMITTED] T3929.025

[GRAPHIC] [TIFF OMITTED] T3929.026

[GRAPHIC] [TIFF OMITTED] T3929.027

[GRAPHIC] [TIFF OMITTED] T3929.028

[GRAPHIC] [TIFF OMITTED] T3929.029

[GRAPHIC] [TIFF OMITTED] T3929.030

[GRAPHIC] [TIFF OMITTED] T3929.031

[GRAPHIC] [TIFF OMITTED] T3929.032

[GRAPHIC] [TIFF OMITTED] T3929.033

[GRAPHIC] [TIFF OMITTED] T3929.034

[GRAPHIC] [TIFF OMITTED] T3929.035

[GRAPHIC] [TIFF OMITTED] T3929.036

[GRAPHIC] [TIFF OMITTED] T3929.037

[GRAPHIC] [TIFF OMITTED] T3929.038

[GRAPHIC] [TIFF OMITTED] T3929.039

[GRAPHIC] [TIFF OMITTED] T3929.040

[GRAPHIC] [TIFF OMITTED] T3929.041

[GRAPHIC] [TIFF OMITTED] T3929.042

[GRAPHIC] [TIFF OMITTED] T3929.043

[GRAPHIC] [TIFF OMITTED] T3929.044

[GRAPHIC] [TIFF OMITTED] T3929.045

[GRAPHIC] [TIFF OMITTED] T3929.046

[GRAPHIC] [TIFF OMITTED] T3929.047

[GRAPHIC] [TIFF OMITTED] T3929.048

[GRAPHIC] [TIFF OMITTED] T3929.049

[GRAPHIC] [TIFF OMITTED] T3929.050

[GRAPHIC] [TIFF OMITTED] T3929.051

[GRAPHIC] [TIFF OMITTED] T3929.052

[GRAPHIC] [TIFF OMITTED] T3929.053

[GRAPHIC] [TIFF OMITTED] T3929.054

[GRAPHIC] [TIFF OMITTED] T3929.055

[GRAPHIC] [TIFF OMITTED] T3929.056

[GRAPHIC] [TIFF OMITTED] T3929.057

[GRAPHIC] [TIFF OMITTED] T3929.058

[GRAPHIC] [TIFF OMITTED] T3929.059

[GRAPHIC] [TIFF OMITTED] T3929.060

[GRAPHIC] [TIFF OMITTED] T3929.061

[GRAPHIC] [TIFF OMITTED] T3929.062

[GRAPHIC] [TIFF OMITTED] T3929.063

[GRAPHIC] [TIFF OMITTED] T3929.064

[GRAPHIC] [TIFF OMITTED] T3929.065

[GRAPHIC] [TIFF OMITTED] T3929.066

[GRAPHIC] [TIFF OMITTED] T3929.067

[GRAPHIC] [TIFF OMITTED] T3929.068

[GRAPHIC] [TIFF OMITTED] T3929.069

[GRAPHIC] [TIFF OMITTED] T3929.070

[GRAPHIC] [TIFF OMITTED] T3929.071

[GRAPHIC] [TIFF OMITTED] T3929.072

[GRAPHIC] [TIFF OMITTED] T3929.073

[GRAPHIC] [TIFF OMITTED] T3929.074

[GRAPHIC] [TIFF OMITTED] T3929.075

[GRAPHIC] [TIFF OMITTED] T3929.076

[GRAPHIC] [TIFF OMITTED] T3929.077

[GRAPHIC] [TIFF OMITTED] T3929.078

[GRAPHIC] [TIFF OMITTED] T3929.079

[GRAPHIC] [TIFF OMITTED] T3929.080

[GRAPHIC] [TIFF OMITTED] T3929.081

[GRAPHIC] [TIFF OMITTED] T3929.082

[GRAPHIC] [TIFF OMITTED] T3929.083

                                 <all>

</pre></body></html>
